                                     INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704




                                                                                November 12,2004

MEMORANDUM FOR CHIEF OF STAFF, OFFICE OF THEINSPECTOR GENERAL,
                         DEPARTMENT OF DEFENSE
SUBJECT: Review of Business-Class and First-Class Airfares Within the Office of the
         Inspector General of the Department of Defense (Report No. D-2005-6-001)

         We reviewed 20 transactions that were coded as business-class and first-class travel
during the 2002 and 2003 caIendar years for the Office of the Inspector G e n d of the
Department of Defense (OIG DoD). To ensure auditor impartiality, the Audit Policy and
Ovmight Directorate arranged to conduct the internal review of the OIG DoD business-class and
first-class travel transactions.
        Official travel must comply with the Joint Travel Regulation (JTR),the DoD Financial
Management Regulation (FMR),and the OIG Travel Manual. The JTR, Volume 2, Section
C2204, addresses commercial air accommodationsfor DoD civilian personnel. The regulation
provides guidance on authorizatiodapproval, traveler's responsibilities and documentation, and
circumstances justifying use of business-class and first-class airfares. The JTR is updated
periodically; therefore we evaluated the transactions against the edition of the JTR that was in
effect at the time the trip was booked by the travel agency.

         The JTR establishes limited circumstances where a traveler could use business-class and
first-class airfares. Currently, there are eight circumstances where a traveler could use
business-class airfares and three circumstances where a traveler could use first-class aitfares.
The JTR also establishes exceptions to the circumstances where a traveler can use business-class
and first-class airfares.
        The FMR, Volume 9, Chapter 2, dated September 2000, addresses responsibilities of
accountable officials and travelers performing official government travel. The FMR, Volume 9,
Chapter 2, Section 020401, addresses.responsibilitiesof an authorizing official. Section 020401
does not address whether the authorizing official is to retain travel records and the period of
retention of those records. The F'MR, Volume 9, Chapter 2, Section 020402, addresses
responsibilities of a traveler, which includes preparing initial authorizations and vouchers and
retaining receipts.

        The FMR, Volume 9, Chapter 2 wai updated during August 2003. The update
established the requirement for the authorizing official to retain records to substantiate travel
claims for a specific timeframe and for the traveler to provide copies of receipts to the
authorizing official.
       IG Manual 4500.42 “OIG Travel Manual”, March 1991, currently under revision,
provides policy guidance, instructions, and responsibilities for establishing and administering the
Travel and Transportation Program for the OIG DoD.

Results. Although we found no significant issues related to business-class and first-class
airfares, we did find that OIG DoD needed to improve internal controls in the areas of record
retention and documentation when dealing with business-class and first-class airfares.
Additionally, OIG DoD needed to establish procedures to ensure that travelers are in compliance
with the JTR, and any updates, when justifying business-class and first-class airfares.

        Based on our review, we have the following comments, observations, and
recommendations that if implemented should prevent future internal control weaknesses. In a
November 2, 2004, response to a draft of this report, the Chief of Staff, OIG DoD concurred with
the recommendations and planned actions that meet the intention of the recommendations
(Appendix B).

Comments, Observations, and Recommendations
Records for Business-Class and First-Class Travel. In the course of our review of the
business-class and first-class trips taken by OIG DoD travelers, we found that not all OIG DoD
employees could provide travel related documents. The September 2000 edition of the FMR
establishes that the traveler is responsible for preparing initial authorizations and vouchers. The
traveler shall provide receipts or signed statement of missing receipts to the authorizing official
and reviewing official upon request. The traveler must also retain receipts for all lodging
expenses, and all receipts for individual reimbursable expenses of $75 or more, for 4 years in
accordance with Internal Revenue Service requirements. August 2003 updates to the FMR
established that the traveler shall provide copies of receipts to the authorizing official and it is
the authorizing official’s responsibility to retain records that substantiate certified travel claims
(including copies of receipts) in the office where certification occurred for 6 years and 3 months.

         The OIG Travel Manual stipulates that use of other classes of travel besides coach class
travel is not authorized and when exceptional circumstances arise, a request for exception to
policy must be prepared. The travel manual also stipulates that when filing a travel claim,
receipts are required for all reimbursable items in excess of $25, and particularly for parking
fees, taxis, commercial transportation, etc. Receipts for any amount are required for lodging, car
rental, registration fees, purchased supplies, and receipt of airline ticket.

        Seven of the 20 trips we reviewed were missing some form of travel documentation,
including the passenger airline receipt, which states what class of air accommodations were
used. For six of the seven trips without documentation the traveler or authorizing official was
not able to provide the passenger airline receipt; two of those six trips were missing all receipts
associated with the trip.




                                                  2
For one of the seven trips with missing documentation, the traveler could not be contacted and
the OIG DoD could not locate receipts, including the passenger airline receipt, for the trip in
question.

        Although the traveler and authorizing official could not provide all documents necessary
to have a complete audit trail, we were able to obtain some documents from other divisions
within the OIG DoD. Travel orders, vouchers, and itineraries were obtained from OIG DoD
Travel Branch for all 20 trips reviewed. The OIG DoD travel agency would be able to provide a
copy of the passenger airline receipts they printed if the travel agency still had those records on
site. Although we were able to obtain most documents for the trips in question from various
divisions within the OIG DoD, complete travel records need to be kept in order to provide a clear
audit trail.

       Recommendation. We recommend that the Chief of Staff, in accordance with the
       Volume 9, Chapter 2 of the FMR and the OIG Travel Manual, develop and promulgate
       policy to establish the time period the travelers and authorizing officials shall retain
       travel documents and the appropriate information to be contained in those records.

       Management Comments. The Chief of Staff planned actions (Appendix B) are
       responsive to the recommendation. Management will include policy in the OIG DoD
       Manual 4500.42 and an “all hands” email requiring each Authorizing/Order-Issuing
       Official’s office to maintain travel related documents for 6 years and 3 months.

Coding of Business-Class and First-Class Travel. While some trips taken by OIG DoD
travelers appear to be business-class trips, they may be coach-class trips that had to be coded as
business-class trips in order to book the trip. According to the OIG DoD travel agent, a different
class code is required, in some cases, due to coding discrepancies between the airlines and the
electronic booking system. For example, a trip from London, England to Stuttgart, Germany,
may be coded as a business-class trip, because the electronic booking system would not allow
the trip to be booked in coach or economy-class, but the traveler or agency is only charged for a
coach/economy-class trip. The travel agent must enter a different class code into the system in
order to book the trip, if he does not enter a different class code, in most cases a business-class
code, the agent is not able to complete the booking and price out the trip.

        During the course of the review, we discovered that 16 of the 20 trips could have been
coded as business as a result of the booking system requirements. In conversations with the
travelers and upon review of the available travel documents, it was determined that the 16 trips
were likely not paid at a business-class rate. However, there is no documentation on the travel
documents to confirm that the trips were booked under a business-class code and paid at a
coach/economy-class rate.

       Four of the 20 trips reviewed were coded and paid at a business-class rate. We
determined these trips were paid at a business-class rate based on available travel documents.



                                                 3
Each of the four trips had supporting authorizations/approvals for the traveler to use
business-class air accommodations on the trip and therefore, we determined that the traveler did
use business-class air accommodations and would have paid a business-class rate.

           Recommendation. We recommend that the Chief of Staff develop controls to document
           if the trip was actually booked and paid as business-class/first-class or coded as business-
           class/first-class as a result of a coding issue between the airlines and the electronic
           booking system.

           Management Comments. The Chief of Staff planned actions (Appendix B) are
           responsive to the recommendation. Management will now require that the Contract
           Travel Office annotate on the Passenger Name Record (PNR) whether the traveler is
           booked at a business-class rate or coach-class rate that is coded as a business-class ticket.
           The OIG Travel Branch will keep copies of the PNR.

Approval and Justification of Business-Class and First-Class Travel. It is Government
policy that, for employees who use commercial air carriers for domestic and international travel
on official business, the Government purchase coach-class airline accommodations.
Business-class and first-class airline accommodations should be used in limited circumstances as
outlined in the JTR. During the timeframe of the review, there were eight to nine1 circumstances
where a traveler could use business-class airline accommodations; frequent updates to the JTR
changed the circumstances that permitted the use of business-class airline accommodations; and
three circumstances where a traveler could use first-class airline accommodations.

       During the review, we discovered four trips that were authorized and approved to use
business-class airline accommodations. Of these four trips, three were correctly authorized and
approved and justifiable based on the edition of the JTR in effect at the time the trip was booked.

        One trip was authorized/approved by the correct authority, but lacked appropriate
justification. A traveler, who was authorized/approved to use business-class air
accommodations, used business-class air accommodations when returning from a temporary duty
station. The JTR stipulated that business-class travel may be authorized/approved when travel is
between authorized origin and destination points (one of which is outside the continental United
States (OCONUS)) and the scheduled flight time (including airport stopovers and plane changes)
is in excess of 14 hours. In a note in the JTR, a traveler is disqualified from using business-class
air accommodations on a return flight to the permanent duty station. “On TDY2 travel, the
14-hour rule only applies en route to the TDY site. On a return flight to the PDS3, a business-
class transportation should not be provided.” The traveler’s return flight was over 14 hours and

1
    From January 2002 through March 2002, there were nine instances where a traveler could use business-class
    travel. From April 2002 through December 2003, there were eight instances where a traveler could use
    business-class travel. The wording of these circumstances changes periodically.
2
    Temporary Duty Station
3
    Permanent Duty Station


                                                          4
h m an OCONUS TDY location to a continental United States permanent duty location.
Although the return trip was over 14 hours, based on the JTR, the traveler should have been
denied use of business-class airline accommodations on the return trip fiom the TDY location to
the permanent duty station.

       Recommendation. We recommend that the Chief of StafF develop and promulgate
       procedures which instruct travelers and authorizing officials to confirm compliance with
       the current Joint Travel Regulation, and any updates, before using businessclass and
       first-class travel.

       Management comment^. The Chief of Staffplanned actions (Appendix B) are
       responsive to the recommendation. Management will include policy in the OIG D o D
       M a n d 4500.42, at the OIG DoD Quarterly Travel Training Classes, and an "all hands''
       email on the updated procedures for authonzin&proving business-class and fits4ass
       travel.

       See Appendix A for the scope and methodology of the review and Appendix B for
       management comments. PIease call Mr. George Hunter at (703) 604-8756 or
       Ms. Carolyn Davis (703) 604-8877 if you have any questions.




                                          Assistant Inspector &era1
                                          Audit Policy and Oversight
Appendix A. Scope and Methodology
       The Assistant Inspector General for Audit Policy and Oversight, Office of the Deputy
Inspector General for Inspections and Policy of the Department of Defense conducted the
review. The scope of this review was limited to the employees of the OIG DoD. The team
reviewed 20 trips taken between January 1, 2002 and December 31, 2003, that were coded as
business-class or first-class travel. The purpose of this review was to determine whether OIG
DoD personnel improperly used business-class or first-class airfares. The review team obtained
and examined travel documentation for each trip in question and conducted interviews with OIG
DoD travelers, an OIG DoD travel authorizing official and a travel agent who books flights for
OIG DoD travelers.

        The review team used the JTR Volume 2 section C2204 to determine whether the trips in
question were correctly authorized, approved, and justified. The review team examined each
month of the JTR Volume 2 during the review period to account for any changes to criteria
pertaining to business-class and first-class travel. The review team documented any changes and
noted the date of the changes. The review team examined the FMR and any updates or changes
made during the review period. The review team examined the OIG Travel Manual effective
March 1991. The review team applied the criteria to the trips based on the date the trip in
question was booked. In conducting the review, the review team evaluated 20 trips taken during
the period reviewed and associated supporting documentation for those trips.




                                               6
Appendix B. Management Comments


                                     INSPECTOR GENERAL
                                    DEPARTMENTOFDEFENSE
                                         . . ~. .
                                               ~~




                                      UWI ARMY N A W ~ R ~ V E
                                  ARLINQTON, VIRGINLA 222024704




    MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT POLICY
                   AND OVERSIGHT

    SUBJECT: Quality Control Review of Business-Class and First-Class Airfares within
             the Office of the Inspector General of the Deparbnent of Dcfmse (Project
             NO. D2004LH-0159.001)

           In response to the three recommendations from your memorandum of October 7,
    2004, subject as above, the OIG DoD Travel Branch, Administration and Logistics
    Services Directorate (ALSD), Office of the Chief of Staff, will develop and promulgate
    the following corrective actions.

            Recommendation 1, '%ecor& for BusincscClm and First-Class Travel." All
    travel related documents, to include receipts, will be kept for 6 years and 3 months.
    These documents may be kept in hardcopy or electronic form. Each AuthorizinglOrder-
    Issuing Official's office will stoiton the documents. The documentation package will
    include the authorization,voucher and all required receipts pertaining to that particular
    havel. This policy will be included in the revision to OIG DoD Manual 4500.42, "OIG
    Travel Manual," that will be published during the 2" Quarter of EY 2005. In addition, an
    "all hands" e-mail will be sent out in November 2004 promulgating this policy.

           Recommendation 2, "Coding of Business-Class and First-class Travel" The
    Contract Travel Offlce will annotate the remarb section of the Passenger Name Record
    (PNR) with comments that indicate if the travel is booked at the business-class rate or at
    the coach-class rate and coded as business-class to satisfy industry standards. The OIG
    Travel Branch will keep copies of the PNR remarks on file in the OIG DoD Travel
    Branch.

            Recommendation 3, "Approval and Justification of Business-Class and First-
    Class Travel." Updated procedures for authoriziig/approving business-class and first-
    class travel will be incorporated in the revised 1G Manual 4500.42. It will include
    instructions to contact the OIG DoD Travel Branch prior to authorizing business-class
    and first-class travel. Additionally, this information will be provided to OIG DoD
    employees at all Quarterly Travel Training Classes and will be promulgated in an "all
    hands" e-mail that will be sent out in November 2004.
Appendix B. Management Comments




           The above corrective actions will be incorporated in@ the revised IG Manual
     4500.42, "OIG Travel Manual." Should you have any questions, plem contact me of
     Mr. Gerald Matncy, OIG Travcl Branch, ALSD, 703-604-9799.
